Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  THE MEDICARE-MEDICAID
 (MEDI-MEDI) DATA MATCH
        PROGRAM




                    Daniel R. Levinson
                     Inspector General

                       April 2012
                     OEI-09-08-00370
EXECUTIVE SUMMARY: THE MEDICARE-MEDICAID (MEDI-MEDI) DATA
MATCH PROGRAM
OEI-09-08-00370

WHY WE DID THIS STUDY

The Medicare-Medicaid Data Match program (Medi-Medi program) enables program safeguard
contractors (PSC) and participating State and Federal Government agencies to collaboratively
analyze billing trends across the Medicare and Medicaid programs to identify potential fraud,
waste, and abuse. Participation is optional. The Social Security Act mandates that the
Medi-Medi program increase the effectiveness and efficiency of the Medicare and Medicaid
programs through cost avoidance (i.e., prepayment denials); savings; and recoupment of
fraudulent, wasteful, or abusive expenditures.

HOW WE DID THIS STUDY

We analyzed data collected from the Centers for Medicare & Medicaid Services (CMS), PSCs,
State Medicaid program integrity agencies, and other Federal and State agencies participating in
the Medi-Medi program. The period of our review was 2007 and 2008.

WHAT WE FOUND

The Medi-Medi program produced limited results and few fraud referrals. During 2007 and
2008, the program—in which 10 States had chosen to participate—received $60 million in
appropriations and it avoided and recouped $57.8 million. The program produced 66 referrals to
law enforcement, and law enforcement accepted 27 of these. Among the 10 participating States
collectively, each State averaged 2.8 Medicare referrals to law enforcement per year; law
enforcement accepted an average of 1.15 referrals per State per year. In comparison, each State
averaged 0.5 Medicaid referrals to law enforcement per year; law enforcement accepted an
average of 0.2 referrals per State per year. Also, State Medicaid programs received less benefit
from the Medi-Medi program than Medicare received. Of the $46.2 million total in Medicare
and Medicaid expenditures recouped through the program during 2007 and 2008, more than
three-quarters—$34.9 million—was recouped for Medicare.

WHAT WE RECOMMEND

We recommend that CMS reevaluate the goals, structure, and operations of the Medi-Medi
program to determine what aspect of the program, if any, should be part of CMS’s overall
program integrity strategy. CMS concurred with our recommendation. CMS commented that
since the period of our review, it has made significant strides in enhancing the effectiveness of
the Medi-Medi program. However, since our period of review, CMS has not provided any data
to illustrate enhanced effectiveness, such as the number of referrals, accepted referrals, and the
actual—not potential—Medicare and Medicaid expenditures avoided and recouped through the
program. These data would enable Congress to make an informed decision whether to continue
funding the program and enable State and Federal agencies to make an informed decision
whether to participate.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................8
Findings......................................................................................................14
           Although most PSCs performed all of the required tasks, the
           Medi-Medi program produced limited results and few fraud
           referrals ..........................................................................................14
           State Medicaid programs received less benefit from the
           Medi-Medi program than Medicare received ................................17
           Limitations in the administration of the Medi-Medi program
           may have diminished its potential..................................................18
Recommendation .......................................................................................21
           Agency Comments and Office of Inspector General Response.....22
Appendixes ................................................................................................23
           A: Sources for Centers for Medicare & Medicaid Services
           Requirements for the Medicare-Medicaid Data Match Program ...23
           B: Required Tasks Listed in the Statement of Work and
           Documentation Analyzed To Determine Whether Tasks Were
           Performed .......................................................................................24
           C: Analysis Results of Program Safeguard Contractors’
           Performance of Selected Tasks in the Statement of Work for
           the Medicare-Medicaid Data Match Program ...............................27
           D: Agency Comments ...................................................................29
Acknowledgments......................................................................................32
             OBJECTIVES
             To determine:
             1. Whether program safeguard contractors (PSC) performed the required
                  tasks for the Medicare-Medicaid Data Match program (Medi-Medi
                  program).
             2. To what extent the Medi-Medi program identified fraud, waste, and
                  abuse.

             BACKGROUND
             Medicare-Medicaid Data Match Program
             The Medi-Medi program enables PSCs and participating State and Federal
             Government agencies to collaboratively analyze billing trends across the
             Medicare and Medicaid programs to identify potential fraud, waste, and
             abuse. The PSCs’ primary goal with regard to the Medi-Medi program is
             to identify cases of suspected fraud and take immediate action to ensure
             that monies are not inappropriately paid out and that any inappropriate
             payments are recouped. 1 The purpose of analyzing Medicare and
             Medicaid claims data collectively is to detect aberrant billing patterns that
             may not be evident when analyzing the data separately.
             Funding for the Medi-Medi program. After the Centers for Medicare
             & Medicaid Services (CMS) implemented an initial pilot program in one
             State in 2001, nine additional States opted to participate. 2 Between fiscal
             years (FY) 2001 and 2005, the program received approximately
             $30 million in funding from a combination of Health Care Fraud and
             Abuse Control funds and Federal Bureau of Investigation funds. 3 The
             Deficit Reduction Act (DRA) of 2005 established and funded an expanded
             Medi-Medi program, appropriating funding on an FY basis starting in
             2006. In FY 2006, funding was $12 million. By FY 2009, funding had
             increased to $48 million. Starting in FY 2010 and for each subsequent


             1
               CMS, Medicare Program Integrity Manual, Pub. 100-08, ch. 4, § 4.2. Accessed at
             https://www.cms.gov/manuals/downloads/pim83c04.pdf on October 25, 2010.
             2
              In 2003, Florida, Illinois, New Jersey, North Carolina, Pennsylvania, and Texas joined the program. In 2004,
             Ohio and Washington joined, followed in 2005 by New York. CMS, Medicare-Medicaid Data Match Program
             (Medi-Medi) Policies and Procedures Manual (Medi-Medi PPM), August 20, 2007, p. 3.
             3
               The Health Insurance Portability and Accountability Act of 1996 established a national Health Care Fraud and
             Abuse Control Program under the joint direction of the Attorney General and the Secretary of Health and
             Human Services (HHS) (acting through the Inspector General). The program was designed to coordinate
             Federal, State, and local law enforcement activities with respect to health care fraud and abuse. HHS and
             Department of Justice, Health Care Fraud and Abuse Control Program Annual Report for Fiscal Year 2010,
             p. 1. Accessed at http://oig.hhs.gov/publications/docs/hcfac/hcfacreport2010.pdf on June 29, 2011.



OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program                                                   1
             year, the DRA has funded the program at $60 million per year. 4 During
             the period of our review—2007 and 2008—$60 million was appropriated
             to fund the program: $24 million in 2007 and $36 million in 2008.5
             Authorities. Section 1893(g) of the Social Security Act (SSA) sets forth the
             requirements for conducting the Medi-Medi program. 6 Section 1893(g)
             requires that certain program integrity functions be performed. PSCs are
             expected to perform these functions, which consist of:
                             •    identifying program vulnerabilities by using computer
                                  algorithms to look for payment anomalies (including billing or
                                  billing patterns identified with respect to service, time, or
                                  patients that appear suspect or otherwise implausible);
                             •    working with States, the Attorney General, and the Inspector
                                  General of HHS to coordinate actions to protect the Federal and
                                  State shares of Medicare and Medicaid expenditures; and
                             •    increasing the effectiveness and efficiency of Medicare and
                                  Medicaid through cost avoidance (i.e., prepayment denials);
                                  savings; and recoupment of fraudulent, wasteful, or abusive
                                  expenditures.
             In addition, section 1893(g)(1)(B) of the SSA requires that, no less
             frequently than quarterly, any data and statistics collected by the
             Medi-Medi program be made available to the Attorney General, the
             Director of the Federal Bureau of Investigation, the Inspector General of
             HHS, and the States (including the Medicaid Fraud Control Units).

             Medi-Medi Statement of Work tasks. To address the requirements in
             section 1893(g) of the SSA, CMS requires PSCs to perform program
             integrity tasks listed in a Medi-Medi Statement of Work (SOW). 7
             However, in those SOWs, CMS does not impose minimum output
             standards—national or otherwise—relating to the extent to which PSCs
             make referrals to Federal or State law enforcement agencies or the amount
             of fraud, waste, and abuse expenditures avoided or recouped. 8 For each of
             the 10 States that participated during 2007 and 2008, CMS awarded a

             4
                  P.L. 109-171 § 6034.
             5
                  DRA § 6034.
             6
               Section 6034 of the DRA added section 1893 of the SSA, which permanently established the Medi-Medi
             program at section 1893(g). P.L. 109-171 § 6034.
             7 The SOW is a contract between CMS and a PSC.
             8
               PSCs are required to submit a monthly status report to CMS identifying the providers being referred to law
             enforcement and indicating whether those referrals were accepted. However, according to CMS Medicare
             program integrity staff, the purpose of collecting these data is to provide them upon request to third parties, such
             as Congress, the Government Accountability Office (GAO), and/or the HHS Office of Inspector General.



OEI-09-08-00370      The Medicare-Medicaid (Medi-Medi) Data Match Program                                                      2
             SOW to a PSC. 9 CMS awarded 10 individual SOWs among 8 PSCs.
             (One PSC was awarded three SOWs.) The SOW is incorporated into each
             PSC’s broader program integrity task order. During 2007 and 2008,
             10 SOW tasks were listed: 10


                           1. Incorporate a project plan that defines the steps and timelines
                              for implementing the Medi-Medi program, including
                              identifying resource needs and responsible parties to complete
                              the implementation steps.
                           2. Incorporate a detailed information technology plan identifying
                              how the PSC shall receive, store, safeguard, manipulate, and
                              analyze data.
                           3. Submit to CMS a monthly status report reflecting the PSC’s
                              results from the previous month. Among other information, the
                              report must contain information about Medi-Medi program data
                              analysis; providers being referred to law enforcement; the
                              status of those referrals (i.e., whether law enforcement accepts
                              or declines them); outcome of civil or criminal prosecution or
                              administrative action; and the amount of Medicare and/or
                              Medicaid expenditures avoided and recouped.
                           4. Develop a joint operating agreement with the State Medicaid
                              program integrity agency (and any other necessary parties) to
                              establish guidelines, duties, and shared expectations for the
                              Medi-Medi program.
                           5. Provide State Medicaid program integrity staff with access to
                              matched Medicare and Medicaid data within 4 months of
                              executing a computer match agreement.
                           6. Analyze data, including data matching, trending, and statistical
                              activities, to enhance the detection and prevention of Medicare
                              and Medicaid fraud and abuse.
                           7. Develop and refer potential fraud cases and/or data leads to the
                              appropriate State or Federal law enforcement agencies.



             9
               CMS is transitioning program integrity work from PSCs to Zone Program Integrity Contractors (ZPIC). CMS
             began awarding contracts to ZPICs in September 2008. However, in 2008, the initial transition process
             occurred in only two participating States. The chief difference between PSCs and ZPICs is that ZPICs cover
             broader geographical areas and multiple parts of the Medicare program, whereas PSCs cover more limited areas
             and scopes.
             10
                The tasks listed in the SOW for each PSC vary, but not substantially. This list summarizes the 10 tasks
             identified in a SOW.



OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program                                                    3
                           8. Facilitate a quarterly steering committee 11 with Federal and
                              State agencies participating in the Medi-Medi program, and
                              prepare minutes of those meetings.
                           9. Prepare a “lessons learned” report discussing matching and
                              combining Medicare and Medicaid data.
                           10. Perform transition activities, working closely with ZPICs to
                               ensure that all program integrity activities continue during the
                               transition from PSCs to ZPICs. 12 Such activities include (but
                               are not limited to) transferring medical records, information on
                               investigations and on cases referred to law enforcement, and
                               other data to ZPICs.

             During the first year that CMS awarded Medi-Medi SOWs to PSCs, it
             required them to perform three of these tasks—incorporating a project
             plan (task #1), incorporating an information technology plan (task #2), and
             preparing “lessons learned” reports (task #9)—on a one-time basis.
             Because all of the SOWs were awarded prior to 2007, each PSC
             performed those three tasks prior to the period of our review. With respect
             to task #10—performing transition activities—only two ZPICs were
             officially awarded SOWs during 2008, according to CMS Medicare
             program integrity staff. 13 One of these two ZPICs had previously
             performed tasks under a SOW as a PSC. The other ZPIC had not, so the
             PSC in that instance was required to perform transition activities.
             Therefore, during 2007 and 2008, nine PSCs were required to perform six
             tasks (tasks #3–8) and the remaining PSC was required to perform seven
             tasks (tasks #3–8 and task #10).
             Administration of the Medi-Medi Program
             Even though the purpose of the Medi-Medi program is to address
             vulnerabilities in both Medicare and Medicaid, during 2007 and 2008 the
             Medi-Medi program was administered solely by CMS Medicare program
             integrity staff. 14 In February 2010, CMS announced a reorganization. The
             Medicare integrity program is now administered by the CMS Medicare

             11
               The actual schedule is determined jointly by the applicable PSC, the State Medicaid program integrity
             agency, and other participating Federal and State agencies.
             12
                According to Medicare program integrity staff, when a PSC under a SOW is subsequently awarded a SOW
             as a ZPIC, the PSC is not required to perform transition activities. This task is required only when the SOW is
             awarded to a ZPIC that is an entity different from the preceding PSC.
             13
                Although SOWs were awarded to two ZPICs during 2008, the transition was not completed in 2008. Thus,
             for our 2007–2008 period of review, only PSCs performed the SOW tasks.
             14
                Administering the Medi-Medi program includes, but is not limited to, CMS’s procuring funding to award
             SOWs to PSCs, providing program guidance, assessing PSCs, entering into contracts with PSCs, and partnering
             with State Medicaid agencies and other applicable Federal and State law enforcement agencies to facilitate the
             program. CMS, Medi-Medi PPM. The date of the manual is August 20, 2007.



OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program                                                     4
             Program Integrity Group; similarly, the CMS Medicaid integrity program is
             now administered by the CMS Medicaid Program Integrity Group. Both of
             these integrity programs fall under the direction of the CMS Center for
             Program Integrity. Despite the reorganization, the Medi-Medi program
             remains administered solely by Medicare—specifically, by the CMS
             Medicare Program Integrity Group. For the purpose of this report, we refer
             to this entity as “the CMS Medicare program integrity staff,” as that was its
             name during the period of our review.
             CMS Medi-Medi program guidance. The Medi-Medi PPM provides PSCs,
             State Medicaid program integrity agencies, and Federal and State law
             enforcement agencies with Medi-Medi program guidance, which includes
             (but is not limited to) information relating to:
                    •    identifying the roles and responsibilities of PSCs and participating
                         agencies,
                    •    implementing the Medi-Medi program,
                    •    data connectivity and sharing, and
                    •    data matching.
             Law enforcement agencies that typically participate in the Medi-Medi
             program are the Federal Bureau of Investigation, the HHS Office of
             Inspector General, Medicaid Fraud Control Units, and/or State offices of
             Attorneys General (the Medi-Medi partners). 15
             The Medi-Medi PPM also identifies activities that should be performed by
             State Medicaid program integrity agencies and Medi-Medi partners.
             Although PSCs receive a portion of the Medi-Medi appropriations from
             CMS, States receive no funding to participate and State participation is
             optional. 16 However, for the States that do participate in the Medi-Medi
             program, each State’s Medicaid program integrity agency is encouraged to
             complete certain ongoing activities to benefit the program. These include
             (but are not limited to) providing Medicaid policy and data assistance,
             participating in Medi-Medi data work groups, and working on joint
             investigations. 17
             For those Medi-Medi partners that do participate, the Medi-Medi PPM
             identifies activities that they should perform. They generally include (but

             15
                For the purpose of this report, these law enforcement agencies will be individually referred to by their proper
             names and collectively referred to as the Medi-Medi partners. Although other State and Federal law
             enforcement agencies may participate, the Medi-Medi partners are the agencies to which PSCs are required to
             make data and statistics available.
             16
                According to Medicare program integrity staff, the remaining appropriations are used for Medi-Medi
             program expansion, data systems, and a national Medi-Medi coordinator.
             17
                  CMS, Medi-Medi PPM, pp. 5-6.



OEI-09-08-00370    The Medicare-Medicaid (Medi-Medi) Data Match Program                                                      5
             are not limited to) participating in the steering committee meetings for the
             applicable State, receiving referrals, and providing feedback to the meeting
             attendees about referrals. 18
             The Medicare Program Integrity Manual also provides PSCs with
             additional guidance on the Medi-Medi program. 19 The manual identifies
             PSC program integrity requirements, such as the processes for sharing
             fraud referrals with Medi-Medi partners.
             Assessments of PSCs. PSCs are subject to annual assessments by CMS
             Medicare program integrity staff. 20 In addition, CMS assigns a contract
             officer’s technical representative to assess each PSC’s performance.
             The 2007 and 2008 Program Safeguard Contractor (PSC) Performance
             Evaluation Guidelines (Evaluation Guidelines) provide guidance for
             assessing PSCs’ performance under the broader program integrity task order,
             as well as with regard to the tasks applicable to the Medi-Medi SOW. The
             Evaluation Guidelines provide assessment guidance regarding the following
             six SOW tasks:
                    •    submitting to CMS a monthly status report (task #3),
                    •    developing a joint operating agreement (task #4),
                    •    providing remote user support and access (task #5),
                    •    performing data analysis (task #6),
                    •    developing and referring potential fraud cases (task #7), and
                    •    facilitating a steering committee (task #8).
             The Evaluation Guidelines further require that CMS document its
             assessment findings in its PSC BI [Benefit Integrity] Evaluation Control
             Objectives and Findings Tables (Findings Tables). 21
             The Findings Tables are an internal CMS document that contains the
             comprehensive results of each PSC’s annual assessment. The document
             identifies key elements of the required tasks that need to be completed by the
             PSCs. The Findings Tables contain the review methodology used for rating
             a PSC’s performance, as well as the rating score and assessment findings.
             The ratings range from “0” (unsatisfactory) to “5” (outstanding). CMS
             provides the PSC with an oral summary of the ratings and findings.

             18
                  CMS, Medi-Medi PPM, § 2.
             19
                CMS, Medicare Program Integrity Manual, Pub. 100-08, ch. 4. Accessed at
             https://www.cms.gov/manuals/downloads/pim83c04.pdf on October 25, 2010.
             20
                  HHS, Acquisition Policy Memorandum 2009–07, p. 5.
             21
               CMS, Program Safeguard Contractor Performance Evaluation Guidelines 2007, p. 45, and CMS, Program
             Safeguard Contractor Performance Evaluation Guidelines 2008, p. 45.



OEI-09-08-00370     The Medicare-Medicaid (Medi-Medi) Data Match Program                                           6
             Pursuant to the Federal Acquisition Regulation, CMS summarizes the results
             of the Findings Tables in a Standard Contractor Performance Report
             (Performance Report). 22 For each assessment of a PSC, CMS submits a
             summary into the National Institutes of Health contractor performance
             system. The Performance Report contains the actual assessment rating score
             and the summarized findings. Although the contractor performance system
             is not accessible to the public, PSCs use this system to review their own
             assessments. 23
             Current and Planned Sources of Medicare and Medicaid Data
             In 2007 and 2008, PSCs extracted Medicare claims data through the CMS
             National Claims History files and shared system files. Unlike CMS,
             which collects its Medicaid claims data from each State via the Medicaid
             Statistical Information System (MSIS), 24 PSCs obtain Medicaid claims
             data directly from the participating States’ Medicaid Management
             Information Systems (MMIS) to match them to Medicare data. For each
             participating State, the State Medicaid program integrity agency receives
             matched Medicare and Medicaid claims data from the PSC. The matched
             data may also be shared with Medi-Medi partners.
             The One PI System. A source for Medicare and Medicaid data that is being
             developed by CMS is the One PI System. (The “PI” in the name stands for
             “Program Integrity.”) According to the Medi-Medi PPM and CMS Medicare
             program integrity staff, the concept of the One PI System is to enable access
             to integrated Medicare and Medicaid data. The Medi-Medi PPM provides
             guidance on using the One PI System.
             One PI users obtain data from the CMS-managed integrated database
             repository. As of the date of this report, the repository is fully functional for
             accessing data from Medicare Parts A, B, and D; limited provider data; and
             beneficiary data. 25 However, Medicaid data are not yet included. Until
             CMS can integrate Medicaid data into the repository, the One PI System
             cannot be used to collectively match or analyze Medicare and Medicaid data
             for fraud, waste, and abuse. The contract to implement the One PI System


             22
                  Federal Acquisition Regulation § 42.1501.
             23
                CMS uses the National Institutes of Health contractor performance system to record PSC performance.
             However, as of September 30, 2010, the National Institutes of Health stopped its service of accepting
             performance information and encouraged users to transition to the Department of Defense Contractor
             Performance Assessment Reporting System.
             24
                States are required to submit all their eligibility and claims data to CMS on a quarterly basis through MSIS.
             CMS uses MSIS to collect, manage, analyze, and disseminate information on eligibles, beneficiaries, utilization,
             and payment for services covered by State Medicaid programs. SSA § 1903(r); CMS, Medicaid Statistical
             Information Statistics (MSIS). Accessed at http://www.cms.gov/MSIS/ on January 17, 2011.
             25
               The repository provides access to users through a variety of data analysis software tools, such as SAS,
             MicroStrategy, Cognos, Business Objects, and Advantage Suite.



OEI-09-08-00370     The Medicare-Medicaid (Medi-Medi) Data Match Program                                                   7
             was awarded in September 2006, and the system was to be implemented
             within 5 years at a projected cost of $105 million. 26
             The Fraud Investigation Database
             The Fraud Investigation Database is a nationwide data entry and reporting
             system designed to track Medicare, Medicaid, and Medi-Medi fraud and
             abuse data. Under the Medi-Medi program, PSCs are required to enter into
             the database information about PSC-initiated investigations, cases referred to
             law enforcement, and payment suspensions related to fraud and abuse. 27
             State Medicaid program integrity agencies, Medi-Medi partners, and other
             Federal and State law enforcement agencies use the database to access the
             information that PSCs enter into it.
             Related Studies
             In 2004, GAO issued a report that, in part, provided information about
             CMS’s efforts to support and oversee State program integrity activities, such
             as the Medi-Medi program. 28 GAO found that CMS conducted little
             oversight of these activities.
             In 2005, GAO released a report that focused on (1) the level of resources
             CMS applied to helping States prevent and detect fraud and abuse in
             Medicaid and (2) the implications of that level of support for CMS fraud and
             abuse control activities. 29 GAO found that the expansion of the Medi-Medi
             data match project was slow, potentially leaving unrealized millions of
             dollars in cost avoidance and cost savings. GAO concluded that developing
             a strategic plan for Medicaid fraud and abuse control activities would give
             CMS a basis for providing resources that reflect the financial risk to the
             Federal Government.

             METHODOLOGY
             Scope
             This evaluation focused on the PSCs’ performance under the SOW during
             the period of 2007 and 2008. We selected this period because CMS had
             completed its own internal assessment of the Medi-Medi program (known as



             26
                  CMS Medicare program integrity staff and CMS One PI staff.
             27
                CMS, Medicare Program Integrity Manual, Pub. 100-08, ch. 4, § 4.11. Accessed at
             https://www.cms.gov/manuals/downloads/pim83c04.pdf on May 27, 2010.
             28
               GAO, Medicaid Program Integrity: State and Federal Efforts to Prevent and Detect Improper Payments,
             GAO-04-707, July 2004. Accessed at http://www.gao.gov/new.items/d04707.pdf on May 26, 2010.
             29
               GAO, Medicaid Fraud and Abuse: CMS’s Commitment to Helping States Safeguard Program Dollars Is
             Limited, GAO-05-858T, June 28, 2005. Accessed at http://www.gao.gov/new.items/d05855t.pdf on May 26,
             2010.



OEI-09-08-00370     The Medicare-Medicaid (Medi-Medi) Data Match Program                                             8
             a “lessons learned” report) for the period preceding 2007. 30 In addition,
             CMS expressed an interest in the results of our independent evaluation from
             2007 and 2008 for its transition from using PSCs for the Medi-Medi
             program to using ZPICs instead. As of the date of this report, the transition
             is still in process.
             We report whether PSCs performed the SOW tasks required in 2007 and
             2008. We also report the number of referrals made to law enforcement
             through the Medi-Medi program and the number that were accepted. In
             addition, we identify the actual dollars associated with Medicare prepayment
             denials and the Medicare and Medicaid dollars recovered. Finally, we report
             the extent to which CMS assessed PSCs’ performance under the SOW.
             Data Collection
             We obtained the following from CMS Medicare program integrity staff:
             •    sources for CMS requirements for the Medi-Medi program for 2007 and
                  2008 (see Appendix A for a list of these documents);
             •    documentation (including the Findings Tables and the Performance
                  Reports) illustrating the extent to which PSCs performed SOW tasks;
             •    documents that PSCs produced as required by 3 of the 10 SOW tasks
                  during 2007 and 2008: monthly status reports (required by task #3),
                  joint operating agreements (required by task #4), and quarterly minutes
                  (for task #8, which requires PSCs to facilitate a joint steering
                  committee); 31
             •    the number of referrals made to law enforcement and the number that
                  CMS identified as being accepted; and
             •    the dollars associated with Medicare prepayment denials and/or the
                  dollars recovered through each State’s Medi-Medi activities.
             To validate and supplement the documentation that we obtained from
             Medicare program integrity staff, we:
             •    sent questionnaires to and conducted structured in-person interviews
                  with CMS Medicare program integrity staff;




             30
                Optimal Solutions Group L.L.C., Final Lessons Learned Report (HHSM-500-2006-00165G),
             January 29, 2007.
             31
                Because all of the SOWs were awarded prior to 2007, each PSC had already been required to complete
             tasks 1, 2, and 9 (incorporating a project plan, incorporating an information technology plan, and preparing a
             “lessons learned” report) and we did not collect these documents during our review. However, we requested
             that CMS Medicare program integrity staff verify through questionnaires and structured interviews that these
             tasks had been completed.



OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program                                                        9
             •    conducted structured in-person interviews with CMS One PI staff, an
                  official from the Center for Medicaid and State Operations, and contract
                  officers’ technical representatives; 32
             •    conducted structured in-person interviews with staff from each of the
                  PSCs;
             •    conducted structured interviews with staff from each of the 10 State
                  Medicaid program integrity agencies that participated in the Medi-Medi
                  program (conducting 5 of these 10 interviews in person); 33 and
             •    conducted structured interviews (by telephone) with staff from a total of
                  37 of the potential 41 various Medi-Medi partners associated with the
                  10 participating States. 34

             Data Analysis
             Unit of analysis. Our unit of analysis is the 10 Medi-Medi SOWs awarded
             to PSCs, which correspond to the participating 10 States. For ease of
             reporting, we use the term “10 PSCs” to represent the 10 SOWs awarded
             among 8 PSCs.
             Analysis of the SOW tasks. Even though the 2007 and 2008 SOWs included
             10 tasks, we assessed PSC performance related only to the tasks CMS
             required PSCs to continue to perform in 2007 and 2008.
             We reviewed the Medi-Medi program requirements for 2007 and 2008 to
             identify all the requirements related to the SOW tasks. For each PSC, we
             then reviewed the Findings Tables and Performance Reports to determine
             whether CMS had—as required by the Evaluation Guidelines—documented
             the assessments. We also reviewed responses from our structured interviews
             and questionnaires to supplement and/or validate our determination of
             whether the PSC performed the tasks according to the requirements.
             For a number of SOW tasks, we applied additional data-analysis
             methodologies:
             •    For the requirement that each PSC submit to CMS a monthly status
                  report (task #3) and develop a joint operating agreement (task #4), we
                  reviewed the 2007 and 2008 monthly status reports and joint operating
                  agreements.


             32
                We interviewed a Center for Medicaid and State Operations official to gain a Medicaid perspective of the
             Medi-Medi program. Upon enactment of the DRA, the Center for Medicaid and State Operations administered
             the Medicaid integrity program within CMS.
             33
               To reduce travel costs, we conducted interviews and reviewed documentation and/or data at 5 of the 10 State
             Medicaid program integrity locations near PSC locations.
             34
                Although the number of Medi-Medi partners that participated in the interviews varied among States, we
             interviewed at least three Medi-Medi partners from each participating State.



OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program                                                  10
             •    For the requirement that each PSC perform data analysis (task #6) and
                  develop and refer potential fraud cases (task #7), we reviewed 2007 and
                  2008 monthly status reports and CMS’s responses to our questionnaires.
                  As part of our structured interviews, while onsite at each PSC location,
                  we also reviewed various examples of each PSC’s data analysis and case
                  development. For the task of performing data analysis, we calculated the
                  sum of unique data analysis projects performed by each PSC. These
                  projects included identifying patterns of potential Medicare and/or
                  Medicaid fraud and performing data analysis targeted to specific
                  providers and/or services. A PSC may perform data analysis for a unique
                  project over several months. If a PSC reported that it continued to
                  perform data analysis for that same project in subsequent months, we
                  counted that project for each of those months as one of the unique data
                  analysis projects being performed during that month.
             •    For the requirement that each PSC facilitate a steering committee
                  (task #8), we reviewed minutes from the meetings.
             See Appendix B for documentation and data we analyzed to determine
             whether PSCs performed the required SOW tasks.
             Although CMS rates PSCs’ performance using a system ranging from “0”
             (unsatisfactory) to “5” (outstanding), because of this system’s subjective
             nature, we did not attempt to rate PSC performance. We considered a task
             performed if documentation and/or data existed demonstrating that the task
             was performed.
             Analysis of fraud, waste, and abuse identified through the Medi-Medi
             program. We analyzed the responses of CMS Medicare program integrity
             staff to our questionnaire to identify the number of Medicare and Medicaid
             referrals made to Federal and State law enforcement agencies and the
             number that were accepted. In addition, we calculated the amount of
             Medicare and Medicaid expenditures avoided through prepayment denials
             and the amount of dollars recovered. We limited the scope of this analysis to
             actual dollars recovered, as opposed to potential dollars recovered.
             We report fraud, waste, and abuse expenditures “avoided” (meaning
             prepayment denials) or “recouped” (meaning funds recovered). This
             terminology is consistent with the language in section 1893(g) of the SSA.
             Analysis of the Medi-Medi program assessment process. For each PSC, we
             reviewed the 2007 and 2008 program requirements. We then reviewed the
             2007 and 2008 Findings Tables and Performance Reports to determine the
             extent to which CMS recorded its assessment of each PSC’s performance of
             the required SOW tasks. We also reviewed responses from our structured




OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program                11
             interviews and questionnaires to supplement and/or validate our
             determination of the extent of CMS’s assessment of PSCs’ performance.
             Data Limitations
             Each program (Medicare and Medicaid) and each participating State operate
             under different circumstances and/or policies. For example, each
             participating State’s Medi-Medi activities are unique to that State, and
             although PSCs are required in their SOWs to refer potential fraud cases to
             State Medicaid program integrity agencies and/or Federal or State law
             enforcement agencies, PSCs do not control what those entities do with their
             referrals. In addition, there may be more Federal law enforcement agency
             resources available for Medicare than there are State law enforcement
             agency resources available for Medicaid.
             PSCs vary as to how much information on data analysis projects they
             include in their monthly status reports. In addition, the project descriptions
             they include in these reports are not comprehensive and do not necessarily
             identify the providers; the relevant program (i.e., Medicare or Medicaid); or
             the results or disposition of the projects. For example, some reports state
             that a PSC completed a certain number of data requests, without any
             additional information. In other monthly reports, other PSCs list only the
             titles of the data analysis projects.
             PSCs also differ as to what they consider to be a data analysis project. Some
             PSCs include preliminary data analysis projects in their monthly status
             reports, whereas other PSCs list only projects for which they have already
             completed the preliminary data analysis and which they consider viable
             fraud cases. Further, some PSCs have not only listed new data analysis
             projects in their reports, but have also listed ongoing ones. This may explain
             the range in the number of unique data analysis projects performed by PSCs
             each month.
             Because of these limitations in the monthly status reports, we did not attempt
             to correlate the number of unique data analysis projects to the number of
             Medicare and/or Medicaid referrals or to the amount of expenditures avoided
             or recouped.
             PSCs, State Medicaid program integrity agencies, and Medi-Medi partners
             may not always agree as to which of them initiated a referral for fraud,
             waste, or abuse, or which of them was responsible for expenditures that were
             avoided or recouped. 35 To minimize the time burden on the State Medicaid
             program integrity agencies and the Medi-Medi partners, we limited their


             35
                This statement is based on responses given during our structured interviews with PSCs and State Medicaid
             program integrity agencies.



OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program                                                 12
             involvement to structured interviews and did not ask them to verify CMS’s
             reported output.
             Standards
             This study was conducted in accordance with the Quality Standards for
             Inspection and Evaluation issued by the Council of the Inspectors General
             on Integrity and Efficiency.




OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program              13
               FINDINGS
               Although most PSCs performed all of the required
               tasks, the Medi-Medi program produced limited results
               and few fraud referrals
               For the period of 2007 and 2008, 7 of the 10 PSCs performed all of the
               required SOW tasks while each of the remaining 3 PSCs performed all but
               1 of the required tasks. See Appendix C for our analysis of PSCs’
               performance of SOW tasks in 2007 and 2008.

               Three of the PSCs did not develop and refer potential fraud
               cases during 1 of the 2 years of the review period
               The SOW states that “fraud cases shall be developed” and further states
               that “the PSC shall refer potential fraud cases and/or data leads to the
               appropriate State or Federal law enforcement agency….” Of the three
               PSCs that did not perform all of the required tasks, all did not develop and
               refer potential fraud cases in 1 of the 2 years of our review period. Two of
               those three PSCs did not refer any potential Medicare or Medicaid fraud
               cases in 2007. The remaining PSC did not refer any potential cases
               through the program in 2008.
               A total of $60 million was appropriated for the Medi-Medi
               program, and $57.8 million in expenditures were avoided and
               recouped
               The DRA appropriated funding for the Medi-Medi program on an
               FY basis. According to CMS Medicare program integrity staff, the actual
               combined total of fraud, waste, and abuse expenditures avoided or
               recouped through the Medi-Medi program during that period was
               $57.8 million (see Table 1).



           Table 1: Combined Totals of 2007 and 2008 Expenditures Avoided and Recouped
           Program                          Expenditures Avoided           Expenditures Recouped                    Total
           Medicare                                   $11,593,283                        $34,934,559        $46,527,842
           Medicaid                                  Not reported 36                     $11,303,554        $11,303,554
           Totals                                     $11,593,283                        $46,238,113        $57,831,396
           Source: OIG analysis of Medi-Medi data.




               36
                 During 2007 and 2008, CMS did not collect data from PSCs regarding the amount of Medicaid expenditures
               avoided through the Medi-Medi program.



OEI-09-08-00370     The Medicare-Medicaid (Medi-Medi) Data Match Program                                            14
             Of the fraud, waste, and abuse expenditures avoided or
             recouped, 66 percent was attributed to Medi-Medi activities in
             three States
             Of the combined $57.8 million in fraud, waste, and abuse expenditures
             avoided or recouped through the Medi-Medi program, a combined total of
             $37.9 million was attributed to Medi-Medi activities in three States;
             individual totals were $14.5 million, $14.3 million, and $9.2 million,
             respectively37 (see Table 2). 38


            Table 2: Combined 2007 and 2008 Medicare Expenditures Avoided and
            Recouped and Medicaid Expenditures Recouped by Each Medi-Medi Program
            Medi-Medi Program                Expenditures Avoided             Expenditures Recouped                  Total

            1                                              $8,849,636                            $5,666,021   $14,515,657
            2                                                      $0                           $14,250,957   $14,250,957
            3                                                $364,909                            $8,799,834    $9,164,743
            4                                                $991,901                            $3,877,993    $4,869,894
            5                                                      $0                            $4,490,955    $4,490,955
            6                                                $370,499                            $3,654,965    $4,025,464
            7                                                      $0                            $3,000,191    $3,000,191
            8                                                $895,617                            $1,285,350    $2,180,967
            9                                                $104,468                            $1,211,847    $1,316,315
            10                                                $16,253                                    $0       $16,253
            Total                                         $11,593,283                           $46,238,113   $57,831,396

            Source: OIG analysis of Medi-Medi data.




             Expenditures avoided. CMS reported that, as a result of the Medi-Medi
             program, a total of $11.6 million in Medicare expenditures was avoided
             through prepayment denials during the period of 2007 and 2008. However,
             of this amount, $8.8 million (76 percent) was attributed to Medi-Medi
             activities in one State.
             Expenditures recouped. During the same period, a total of $46.2 million in
             Medicare and Medicaid expenditures was recouped through the Medi-Medi
             program. However, of this amount, $28.7 million (62 percent) was
             attributed to the same three Medi-Medi programs that recouped and avoided
             $14.5 million, $14.3 million, and $9.2 million, respectively, in total
             Medicare and Medicaid expenditures.
             The Medi-Medi program produced only 66 law enforcement
             referrals; 27 were accepted
             During 2007 and 2008, a combined total of 66 Medicare and Medicaid
             referrals were made to Federal and State law enforcement through the

             37
                  Because of rounding, the sum of these figures does not equal $37.9 million.
             38
                The Medi-Medi programs in Table 2 are ranked by the total amount of Medicare and Medicaid expenditures
             reported as having been avoided or recouped.



OEI-09-08-00370     The Medicare-Medicaid (Medi-Medi) Data Match Program                                            15
             Medi-Medi program, and law enforcement accepted 27 of these (see
             Table 3).

                  Table 3: Combined 2007 and 2008 Medi-Medi Law Enforcement Referrals
                                                                    Number Accepted
                                              Number Referred to                      Percentage Accepted
                  Program                                                        by
                                                Law Enforcement                        by Law Enforcement
                                                                    Law Enforcement
                  Medicare                                   56                  23                  41%
                  Medicaid                                   10                  4                   40%
                  Totals                                     66                 27                   41%
                  Source: OIG analysis of Medi-Medi data.



             As a result of Medi-Medi activities among the 10 States collectively, each
             State averaged 2.8 Medicare referrals to law enforcement per year; an
             average of 1.15 of those referrals were accepted. In comparison, each State
             averaged 0.5 Medicaid referrals to law enforcement per year; an average of
             0.2 of those were accepted.


             Medi-Medi activities in a single State produced 27 of the total referrals
             (41 percent) and 10 of the total accepted referrals (37 percent). Of the
             Medi-Medi activities in the 10 States, 41 percent of the total referrals and
             37 percent of the accepted referrals were attributed to Medi-Medi
             activities in a single State (see Table 4). This is the same State that
             recouped $14.3 million total Medicare and Medicaid expenditures during
             2007 and 2008.

              Table 4: Combined 2007 and 2008 Medi-Medi Law Enforcement Referrals

                                                                 Referred to               Accepted by
              Medi-Medi Program
                                                            Law Enforcement            Law Enforcement

              1                                                          27                         10
              2                                                           8                          2
              3                                                           7                          5
              4                                                           6                          3
              5                                                           6                          1
              6                                                           4                          3
              7                                                           4                          1
              8                                                           2                          1
              9                                                           1                          1
              10                                                          1                          0
              Total                                                      66                         27

              Source: OIG analysis of Medi-Medi data.


             Results from the Medi-Medi program improved slightly between
             2007 and 2008
             Between 2007 and 2008, the amount of Medicare expenditures avoided
             through the Medi-Medi program increased by $1.1 million and the amount
             of Medicare expenditures recouped increased by $10 million. During the



OEI-09-08-00370      The Medicare-Medicaid (Medi-Medi) Data Match Program                             16
             same period, Medicaid expenditures recouped increased by $4.4 million.
             In addition, the total number of Medicare and Medicaid referrals made to
             Federal and State law enforcement increased by 18, while the number of
             those referrals accepted increased by 5.

             State Medicaid programs received less benefit from
             the Medi-Medi program than Medicare received
             Compared with Medicare, Medicaid received less benefit from the
             Medi-Medi program. Of the $46.2 million total in Medicare and Medicaid
             expenditures recouped through the Medi-Medi program during 2007 and
             2008, more than three-quarters—$34.9 million—was recouped for Medicare
             and $11.3 million was recouped for Medicaid. Between 2007 and 2008, the
             amount of Medicare expenditures recouped increased by $10 million, while
             the amount recouped for Medicaid increased by $4.4 million. During the
             same period, of the 66 law enforcement referrals made, more than
             five-sixths—56 of the referrals—were for Medicare and 10 were for
             Medicaid. Law enforcement accepted 23 of the Medicare referrals and only
             4 of the Medicaid referrals.

             Although Medi-Medi appropriations were intended to expand the
             program, no new States were participating as of 2008 and two of
             the participating States ultimately withdrew
             The DRA provisions were intended to establish and fund an expanded
             Medi-Medi program. However, during the period of our review, only
             10 States had chosen to participate. Of those 10 States, 2 States withdrew,
             finding that it offered them minimal expenditure avoidance and recoupment
             of Medicaid funds. 39 State participation in the program is voluntary, and
             States must contribute their own resources to participate. One of the two
             States that withdrew reported that it invested $250,000 of its own resources
             in the program, but recouped only $2,000 over a 5-year period (which
             included 2007 and 2008). However, during 2007 and 2008, that State also
             administered its own Medicaid integrity program independent of the
             Medi-Medi program, and this independent program recouped $28.9 million.
             After 2008, 7 additional States joined the Medi-Medi program, resulting in a
             total of 15 participating States. 40 As a result of the transition to ZPICs, the
             seven additional States joined the Medi-Medi program as part of three
             geographic areas. 41

             39
                  Of the two States that withdrew, one withdrew in September 2008 and the other withdrew in January 2010.
             40
                  Information provided by Medicare program integrity staff.
             41
                Colorado and Oklahoma were included in one ZPIC geographic area. Arkansas, Georgia, and Mississippi
             were included in a second geographic area, and Iowa and Utah were included in a third geographic area.
             Information provided by Medicare program integrity staff.



OEI-09-08-00370     The Medicare-Medicaid (Medi-Medi) Data Match Program                                                17
             During 2007 and 2008, 54 percent of the funds appropriated for the
             Medi-Medi program were used to develop the One PI System, but
             the system will not include Medicaid claims data until at least 2015
             In total, $60 million was appropriated to fund the Medi-Medi program during
             2007 and 2008. 42 Of this amount, 54 percent ($32.5 million) was used to
             develop the One PI System. 43 During 2009 and 2010, $108 million in total was
             appropriated to fund the Medi-Medi program, and an even larger percentage of
             those funds—64 percent ($69 million)—was used to develop the One PI
             System. 44 However, according to Medicare program integrity staff and CMS
             One PI staff, the One PI System will not be available for the Medi-Medi
             program until at least 2015, 4 years after its originally scheduled
             implementation date.
             According to CMS Medicare program integrity staff, the lack of appropriate
             Medicaid claims data for CMS to integrate into the integrated data repository
             is the main barrier to using the One PI System for the Medi-Medi program.
             CMS currently collects Medicaid claims data from each State via MSIS.
             According to CMS Medicare program integrity staff, MSIS data in their
             current form would not be appropriate to integrate into the integrated data
             repository because the data are specific to each State and lack many of the
             standardized data elements needed for program integrity work. 45 Some
             examples of standardized data elements needed for program integrity work
             but not included in MSIS are provider names and addresses, information
             about types of procedures and services, and beneficiary names.

             Limitations in the administration of the Medi-Medi
             program may have diminished its potential
             Lack of inclusion of the Medicaid Program Integrity Group in the
             administration of the Medi-Medi program, limitations of the Fraud
             Investigation Database, and the lack of documentation in CMS’s annual
             assessments of PSCs may limit the potential of the Medi-Medi program.




             42
                  Data provided by CMS One PI staff and Medicare program integrity staff.
             43
                  Information provided by Medicare program integrity staff.
             44
                  Ibid.
             45
                MSIS was designed to collect specific information from each Medicaid agency that would allow CMS to
             report on State Medicaid program characteristics and utilization. According to CMS Medicare program
             integrity staff, MSIS data were not designed to support fraud analytics and they lack standard data elements
             necessary for that purpose. Because of a lack of standardization, the data cannot be used for national analysis.
             CMS anticipates that it will eventually be able to integrate Medicaid claims data into the integrated data
             repository by receiving from States data with common data elements—i.e., definitions, formats, and
             representations will not vary by State.



OEI-09-08-00370     The Medicare-Medicaid (Medi-Medi) Data Match Program                                                   18
             Federal officials from the CMS Medicare Integrity Group do not
             include Federal officials from the CMS Medicaid Integrity
             Group in administering the Medi-Medi program
             The Medi-Medi program is intended to be a collaborative effort to combat
             Medicare and Medicaid fraud, waste, and abuse. However, according to
             CMS Medicare program integrity staff and a former Center for Medicaid and
             State Operations official, although Medicaid program integrity agencies are
             involved at the State level, Federal officials from the CMS Medicare
             Integrity Group do not include Federal officials from the Medicaid Integrity
             Group in administering the Medi-Medi program.
             During structured interviews, 5 of the 10 State Medicaid program integrity
             agencies and 3 of the 10 PSCs suggested that CMS include Federal
             officials from the Medicaid Integrity Group. According to the
             respondents, this would enable CMS Medicare program integrity staff and
             PSCs to better understand the Medicaid side of the program, such as how
             to better interpret and analyze Medicaid claims data. Four of the
             10 participating State Medicaid program integrity agencies said that PSCs
             do not understand Medicaid and that as a result they primarily analyze
             Medicare claims data.


             Access to information in the Fraud Investigation Database is
             limited
             For the purpose of the Medi-Medi program, PSCs are required to enter
             information into the Fraud Investigation Database relating to Medicare,
             Medicaid, and Medi-Medi fraud, waste, and abuse investigations. 46 PSCs
             are required to do this in part to make such information available to State
             Medicaid program integrity agencies. 47 The database is intended to provide
             State Medicaid program integrity agencies with information about Medicaid,
             Medicare and Medi-Medi investigations.
             Five of the ten participating State Medicaid program integrity agencies
             report they do not use the Fraud Investigation Database because CMS did
             not provide access to it. An additional four State Medicaid program
             integrity agencies reported they have difficulty accessing the database
             because it is not user-friendly. The remaining State Medicaid program
             integrity agency reported: “[O]ver the years we have periodically tried to
             use the [Fraud Investigation Database], but found it to be cumbersome and
             of limited use.”


             46
                  CMS, Medicare-Medicaid Data Match Program (Medi-Medi) Policies and Procedures Manual, p. 65.
             47
                CMS, Medicare Program Integrity Manual, Pub. 100-08, ch. 4, § 4.11. Accessed at
             https://www.cms.gov/manuals/downloads/pim83c04.pdf on May 27, 2010.



OEI-09-08-00370     The Medicare-Medicaid (Medi-Medi) Data Match Program                                         19
             PSCs do not receive rating scores directly assessing their
             performance of required tasks listed in the Medi-Medi Statement
             of Work
             The Evaluation Guidelines include guidance for assessing performance on
             the six tasks. However, CMS does not identify each of the required SOW
             tasks in either the Findings Tables or Performance Reports, nor does it
             document its ratings of PSCs on their performance of each SOW task.
             According to CMS Medicare program integrity staff, because the SOW is
             added onto a broader program integrity task order, the majority of the
             content in the Findings Tables and Performance Reports applies to the
             performance under that broader task order. In addition, content in the
             Findings Tables and Performance Reports assessing PSCs’ performance
             under the broader program integrity task order is commingled with content
             about their performance under of SOW tasks. As a result, PSCs do not
             receive rating scores specific to their performance of each SOW task.
             According to CMS Medicare program integrity staff, CMS has never
             made a decision not to renew a PSC’s broader program integrity task order
             based solely on a PSC’s performance under the SOW. CMS uses the
             Findings Tables to document assessment findings and ratings and to
             provide verbal feedback to PSCs regarding their performance under the
             SOWs.




OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program            20
             RECOMMENDATION
             The SSA requires that the Medi-Medi program increase the effectiveness and
             efficiency of the Medicare and Medicaid programs through cost avoidance
             (i.e., prepayment denials); savings; and recoupment of fraudulent, wasteful,
             or abusive expenditures. However, during 2007 and 2008, the Medi-Medi
             program produced limited results and few fraud referrals, and the majority of
             those results were attributed to Medi-Medi activities in three States.
             Compared with Medicare, State Medicaid programs received less benefit
             from the Medi-Medi program. Limitations in the administration of the
             program may have diminished its potential.
             We recommend that CMS:
             Reevaluate the goals, structure, and operations of the
             Medi-Medi program to determine what aspect of the program,
             if any, should be part of CMS’s overall program integrity
             strategy
             As part of this reevaluation, CMS could:
             •    Determine how, if at all, the Medi-Medi program could be a more
                  effective program integrity resource.
             •    Determine whether appropriations for the Medi-Medi program should
                  continue to be used to develop and implement the One PI System.
             •    Determine whether including officials from the Medicaid Program Integrity
                  Group in administering the Medi-Medi program would improve its results.
             •    Ensure that each participating State Medicaid program integrity agency has
                  appropriate access to useful information in the Fraud Investigation Database.
                  As needed, CMS also could provide additional user guidance to State
                  Medicaid Program Integrity agencies for using the database.
             •    Establish appropriate standards in the SOW to measure PSCs’
                  performance in relation to the number of fraud referrals and the amount
                  of Medicare and Medicaid fraud, waste, and abuse expenditures avoided
                  and recouped.
             •    Directly assess PSCs’ performance of each task listed in the SOW, and
                  determine whether performing those tasks produces cost-effective results.
                  In addition, CMS could assess the benefit of providing PSCs with
                  comprehensive written analyses of their performance of each SOW task
                  (and any corrective action plans).




OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program                 21
             AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
             RESPONSE
             CMS concurred with our recommendation. CMS commented that since
             the period of our review, it has made significant strides in enhancing the
             effectiveness of the Medi-Medi program and its overall program integrity
             efforts. CMS further stated that the program has been a useful tool in
             helping fight fraud, waste, and abuse and that the program will become
             more effective over time as more States participate. However, CMS has
             not provided any data to illustrate enhanced effectiveness of the program
             since the period of our review. CMS has not provided any data regarding
             the number of referrals, accepted referrals, and the actual—not potential—
             Medicare and Medicaid expenditures avoided and recouped. These data
             would enable Congress to make an informed decision whether to continue
             appropriating funding for the program. These data would also enable
             stakeholders (i.e., CMS, States, and Medi-Medi partners) to make an
             informed decision on whether to use their resources to participate.
             For the full text of CMS’s comments, see Appendix D.




OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program               22
                APPENDIX A
                Sources for Centers for Medicare & Medicaid Services Requirements for
                the Medicare-Medicaid Data Match Program

             Sources for Requirements                                             Description

                                                       Identifies Program Safeguard Contractors’ (PSC) program integrity
       Medicare Program Integrity Manual               requirements, such as the requirement to enter data into the Fraud
                                                       Investigation Database.



       The Medicare-Medicaid Data Match Program        Identifies the tasks that PSCs were required to perform for the
       (Medi-Medi) Statement of Work (SOW)             period of 2007 and 2008.



                                                       Provides Medi-Medi program guidance to PSCs, State Medicaid
       The Medicare-Medicaid Data Match Program
                                                       program integrity agencies, and Federal and State law
       (Medi-Medi) Policies and Procedures Manual
                                                       enforcement agencies.



                                                       Sets forth the Medi-Medi SOW performance requirements and
       PSC Performance Evaluation Guidelines
                                                       provides guidance for assessing PSCs’ performance.



                                                       Identifies the key elements and review methodology for assessing
       PSC BI [Benefit Integrity] Evaluation Control
                                                       PSC performance, as well as the corresponding written assessment
       Objectives and Findings Tables
                                                       and rating.




OEI-09-08-00370      The Medicare-Medicaid (Medi-Medi) Data Match Program                                          23
                  APPENDIX B
                  Required Tasks Listed In the Statement of Work and Documentation
                  Analyzed To Determine Whether the Task Was Performed

                  A shaded background indicates that Program Safeguard Contractors (PSC)
                  were not required to perform the task during the period of our review.
                  Only one PSC was required to perform transition activities (Task #10).

    Medicare-Medicaid Data Match Program Tasks and Documentation and Data Analyzed

    Statement of Work (SOW) Tasks                    Documentation and Data Analyzed

    1. Incorporate a project plan.                   This Medicare-Medicaid Data Match Program (Medi-Medi program)
                                                     SOW task was required to be performed prior to 2007. Therefore, we did
                                                     not include this task in our analysis.



    2. Incorporate an information technology plan.   This Medi-Medi SOW task was required to be performed prior to 2007.
                                                     Therefore, we did not include this task in our analysis.




    3. Submit to Centers for Medicare &              Monthly status reports
    Medicaid Services (CMS) a monthly status
    report.
                                                     Questionnaire responses from CMS Medicare program integrity staff



                                                     Structured interviews with CMS Medicare program integrity staff PSCs



                                                     PSC BI [Benefit Integrity] Evaluation Control Objectives and Findings
                                                     Tables (Findings Tables)



                                                     Standard Contractor Performance Report (Performance Report)


                                                                                                   continued on next page




OEI-09-08-00370       The Medicare-Medicaid (Medi-Medi) Data Match Program                                           24
                APPENDIX B (continued)
      Medi-Medi Program Tasks and Documentation and Data Analyzed (continued)

      SOW Tasks                                    Documentation and Data Analyzed

      4. Develop a joint operating agreement.      Joint operating agreement



                                                   Questionnaire responses from CMS Medicare program integrity staff



                                                   Structured interviews with CMS Medicare program integrity staff and
                                                   PSCs



                                                   Findings Tables



                                                   Performance Reports



      5. Provide remote user access and support.   Structured interviews with CMS Medicare program integrity staff, PSCs,
                                                   and State Medicaid program integrity agencies




                                                   Findings Tables



                                                   Performance Reports



      6. Perform data analysis.                    Monthly status reports



                                                   Structured interviews (with CMS Medicare program integrity staff, PSCs,
                                                   and State Medicaid program integrity agencies)



                                                   Findings Tables



                                                   Performance Reports



                                                                                               continued on next page




OEI-09-08-00370      The Medicare-Medicaid (Medi-Medi) Data Match Program                                        25
                  APPENDIX B (continued)

    Medi-Medi Program Tasks and Documentation and Data Analyzed (continued)

    SOW tasks                                     Documentation and Data Analyzed

    7. Develop and refer potential fraud cases.   Monthly status reports



                                                  Structured interviews with CMS Medicare program integrity staff, PSCs,
                                                  State Medicaid program integrity agencies, and Medi-Medi Partners



                                                  Questionnaire responses from CMS Medicare program integrity staff



                                                  Findings Tables



                                                  Performance Reports



    8. Facilitate a steering committee.           Quarterly steering committee minutes



                                                  Structured interviews with CMS Medicare program integrity staff, PSCs,
                                                  State program integrity agencies, and Medi-Medi partners



                                                  Findings Tables



                                                  Performance Reports



    9. Prepare “lessons learned” reports.         This Medi-Medi SOW task was required to be performed prior to 2007.
                                                  Therefore, we did not include this task in our analysis.



    10. Perform transition activities.            Structured interviews with CMS Medicare program integrity staff and
                                                  PSCs



                                                  Questionnaire responses from CMS Medicare program integrity staff



                                                  Findings Tables



                                                  Performance Reports




OEI-09-08-00370        The Medicare-Medicaid (Medi-Medi) Data Match Program                                       26
             APPENDIX C
             Analysis Results of Program Safeguard Contractors’ Performance of
             Selected Tasks in the Statement of Work for the Medicare-Medicaid Data
             Match Program

             Task #3: Submit to the Centers for Medicare & Medicaid Services [CMS]
             a monthly status report. Each program safeguard contractor (PSC)
             submitted a monthly status report to CMS. Although the format of the
             reports varied among PSCs, the reports contained the content required by the
             Statement of Work (SOW), such as information about provider referrals, the
             nature of investigations, data analysis projects, and Medicare and/or
             Medicaid expenditures avoided or recouped.
             Task #4: Develop a joint operating agreement. Each PSC developed a joint
             operating agreement with its State Medicaid program integrity agency and
             other applicable agencies to establish guidelines, duties, and shared
             expectations for the Medi-Medi program. In addition, as suggested by the
             Medicare-Medicaid Data Match Program (Medi-Medi) Policies and
             Procedures Manual, those agreements were revised as necessary in 2007 and
             2008.
             Task #5: Provide remote user support and access. For PSCs, State
             Medicaid program integrity agencies, and Medi-Medi partners, each PSC
             provided remote user support and access to matched Medicare and Medicaid
             claims data. However, in 2007, for Medi-Medi programs in two States,
             those two PSCs were not able to provide access to matched Medicare and
             Medicaid data within 4 months of executing a computer match agreement.
             According to CMS Medicare program integrity staff, the delay was due to
             connectivity issues caused by firewalls to the server. PSCs provided access
             to the data through a variety of means, including the use of transmission
             level-1 lines (commonly referred to as T-1 lines), file transfer via the
             Internet, data tapes, and/or data disks. According to PSCs and State
             Medicaid program integrity agencies, user support and access improved in
             those States where PSCs provided staff to work directly onsite with the State
             Medicaid program integrity agency staff.
             Task #6: Perform data analysis. Based on our review of the monthly status
             reports, PSC BI [Benefit Integrity] Evaluation Control Objectives and
             Findings Tables, Standard Contractor Performance Report, and structured
             interviews, each PSC performed data analysis. Each PSC performed at least
             36 total unique data analysis projects during 2007 and 2008. The number of
             unique projects per PSC ranged from 36 to 677. In 2007, each PSC
             performed at least 16 unique data analysis projects, and in 2008, each PSC
             performed at least 10 unique projects.



OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program                27
             APPENDIX C (continued)
             Task #7: Develop and refer potential fraud cases. Based on our review of
             the monthly status reports, questionnaire responses from CMS, and
             structured interviews, 7 of the 10 PSCs developed and referred potential
             fraud cases in both 2007 and 2008. However, among PSCs that did so
             during that time, the number of referrals ranged from 2 PSCs that referred
             4 potential fraud cases each to a PSC that referred 27 fraud cases.
             Task #8: Facilitate a steering committee. Each of the PSCs facilitated a
             steering committee with its State Medicaid program integrity agency and
             Medi-Medi partners and prepared minutes from committee meetings.
             However, the Medi-Medi SOW states that the steering committee “should
             meet not less frequently than quarterly.” Although PSCs may have
             scheduled quarterly meetings, according to the dates entered on the
             committee minutes, five PSCs may have met less frequently in 2007 and one
             PSC may have met less frequently in 2008.
             Task #10: Perform transition activities. Based on responses provided by
             CMS Medicare program integrity staff to our questionnaire, one PSC was
             required to perform transition activities and that PSC performed this task
             by submitting the required information to the Zone Program Integrity
             Contractor that was awarded the SOW.




OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program                28
              APPENDIX D
              Agency Comments




                       ..­....
                      ".
                  (        ~       DEPARTMENT OF HEALTH &. HUMAN SERVICES                                   CentCfS lor MedlC8JEI   & Medicaid Services

                      ,,~~                                                                                  Adminis#7"tor
                                                                                                            Washington. OC 20201




                                 DATE:           JAN 272012
                                 TO: 	         Daniel R. Levinson
                                               l)lspector General

                                 FROM:         "'~T/l"erll1er
                                                                   /S/
                                               Acting   Ad~ator


                                 SUBJECT:      Office of Inspector General (010) Draft Report: "The Medicare-Medicaid (Medi­
                                                Medi) Data Match Program" (OEI-09-08-00370)


                                 The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                                 comment on the OIG draft report entitled, "The Medicare-Medicaid (Medi-Medi) Data Match
                                 Program." The purpose of this report was to determine whether Program Safeguard. Contractors
                                 (PSC) performed the required tasks for the Medicare-Medicaid Data Match Program (Medi-Medi
                                 program) and the extent to which the Medi-Medi program identified fraud, waste, and abuse.

                                 Since the period of review of this report (2007 -2008), CMS has made significWl\ strides in
                                 enhancing the effectiveness of the Medi-Medi program and the Agency's overall program
                                 integrity efforts_ CMS has established the Center for Program Integrity (CPI) that leads a
                                 collaborative effort to fight waste, fraud, and abuse in Medicare and Medicaid. Specifically,
                                 since the formation of CPI, both the CMS Medicare and Medicaid Integrity Program groups have
                                 been working collabord!ive[y on the ongoing operation of the Medi-Medi program.

                                 The Medi-Medi program has been a useful tool in helping to fight fraud, waste, and abuse. The
                                 progranl continues to refer potential fraud referrals to law enforcement, and CMS is examining
                                 opportunities to share best practices among States that have had successful referrals. Six States
                                 have been added to the Medi-Medi program for a total of 15 panicipating States, and there has
                                 been strong interest from additional States in participating. CMS continues to work with States
                                 to identify and collaborate on improvements to the program.

                                  The CMS has already implemented many of the suggestions made by OIG including improving
                                  access to the Fraud Investigations Database for States and establishing appropriate perfonnance
                                  standards for PSCs alld Zone P, ogram Integrity Contractors (ZPIC). In addition, Medicaid
                                  program integrity staffregu[arly collaborates in administrating the Medi-Mcdi program.

                                  As suggested by OIG, CMS is currently assessing the Medi-Medi program regarding program
                                  integrity efforts and provides further detail on OIG's suggestions below.




OEI-09-08-00370       The Medicare-Medicaid (Medi-Medi) Data Match Program                                                                      29
             APPENDIX D (continued)




OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program   30
             APPENDIX D (continued)




OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program   31
             ACKNOWLEDGMENTS
             This report was prepared under the direction of Timothy S. Brady, Regional
             Inspector General for Evaluation and Inspections in the San Francisco
             regional office.
             Michael Henry served as the team leader for this study. Other principal
             Office of Evaluation and Inspections staff from the San Francisco regional
             office who contributed to the report include Loul Alvarez,
             Christina Lester, and Marcia Wong; central office staff who contributed
             includes Scott Manley and Louise Schoggen. We also would like to
             acknowledge the contributions by Ann Maxwell of the Chicago regional
             office and Robert A. Vito of the Philadelphia regional office.




OEI-09-08-00370   The Medicare-Medicaid (Medi-Medi) Data Match Program               32
                      Office of Inspector General
                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
